HHS/OIG-Audit-"Office of Inspector General's Partnership Plan - State of Arizona, Office of Program Integrity's Medicaid Report on Audit of End Stage Renal Disease Services"(A-09-01-00095)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Office of Inspector General's Partnership Plan - State of Arizona,
Office of Program Integrity's Medicaid Report on Audit of End Stage Renal Disease
Services," (A-09-01-00095)
February 14, 2002
Complete
Text of Report is available in PDF format (1.12 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Arizona Office of Program Integrity (OPI) performed this audit as part
of our partnership effort with States to expand audit coverage of the Medicaid
program.  The audit covers Medicaid payments for end stage renal disease
services for the period January 1, 1996 through June 30, 1999.  The OPI
identified potential overpayments of nearly $3.4 million (Federal share, approximately
$2.2 million).  The potential overpayments include claims with separate
charges for laboratory tests included in the composite rates (unbundling),
services and charges exceeding authorized amounts and frequency limits without
appropriate medical documentation, and billing for laboratory tests without
Clinical Laboratory Improvement Amendments certification.  The OPI recommended
financial adjustments as well as procedural improvements.